GR-80-99-007
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Grants to Encourage Arrest Policies
Administered by the Osage Tribal Council
Grant Number 97-WE-VX-0043
 
GR-80-99-007
 
March 5, 1999
 
EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of the
Grants to Encourage Arrest Policies, grant number 97-WE-VX-0043, administered by the Osage
Tribal Council. The $301,844 grant was for the period March 1, 1997, through August 31,
1998. This audit was conducted at the request of the Office of Justice Progams.
On September 17, 1997, the United States Court of Appeals for the Tenth Circuit decided
Fletcher v. United States, 116 F. 3d 1315 (10th Cir. 1997). This
decision recognized the Council as the valid entity for the Osage Tribe (Tribe). As a
result of the ruling, the Violence Against Women Grants Office must deobligate grant funds
to the Osage Nation and re-award the remaining grant funds to the Osage Tribal Council.
Personnel changes resulting from the court ruling, we believe, impeded the Tribes
ability to execute the grant. As of February 12, 1999, the Tribe had not developed a
detailed plan for accomplishing the grant goals. In addition, we identified the following
weaknesses with regard to the Tribe meeting grant conditions.


The Tribe did not comply with four Special Conditions of the grant.


The Tribe withdrew $3,438 without submitting a detailed action plan, even though it
    agreed not to obligate, expend, or drawdown funds until it submitted a plan. 


The Tribe failed to reduce travel costs by $197 following Southwest Airlines
    reimbursement for a lost ticket.


The Tribe did not submit five Financial Status Reports timely, thereby not reporting
    grant expendiutres of $3,438 until 419 days after drawing the funds.


The Tribe did not submit any required Categorical Assistance Progress Reports,
    consequently failing to document activities for grant expenditures totaling $3,438.

These weaknesses are discussed in the Findings and Recommendations section of this
report. Our audit scope and methodology are described in Appendix I.
#####